                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM
                         I




 Case Number: A03100058                                                                      Page 1 of 1



         We reviewed 71 grants selected by a random sampling procedure from NSF Fiscal Year 2001
         awards for conferences, workshops and symposia. As part of the review, we requested grant
         records from each grantee. Where the records indicated possible issues, we opened inquiries to
         resolve the issues.

         In a grant that provided partial support for a scientific conference1, our analysis indicated that
         significant program income from registration fees was not properly allocated to the various
         Federal spohsors. We opened an inquiry to resolve the issues and wrote to the grantee, a
         professional society. Based on the records provided, we also identified certain cost-related issues
         with the NS'F grant, including reallocation of participant support hnds without NSF approval.

         The grantee'agreed with our analysis and addressed the award issues by transferring costs. In
         terms of program income, the grantee calculated each sponsor's share of support for the
         conference, allocated income and costs accordingly, and demonstrated that allowable costs
         exceeded program income for each Federal sponsor.

         Because the grantee's A-133 audit included awards that supported the conference, but failed to
         identify any issues, we referred the matter of the A-133 audit to the Office of Audit for further
         review.

         Accordingly, this case is closed.




         1

                         I!

                         I
                         I/

                         'I

NSF OIG Form 2 (11/02)   '1
